No. 20-222
In the

Supreme Court of the United States
GOLDMAN SACHS GROUP, INC., ET AL.,
PETITIONERS,
v.
ARKANSAS TEACHER RETIREMENT SYSTEM, ET AL.,
RESPONDENTS.

ON PETITION FOR A WRIT OF CERTIORARI
TO THE UNITED STATES COURT OF APPEALS
FOR THE SECOND CIRCUIT

BRIEF OF FINANCIAL ECONOMISTS AS AMICI
CURIAE IN SUPPORT OF PETITIONERS

MICHAEL C. KEATS
Counsel of Record
JUSTIN J. SANTOLLI
FRIED, FRANK, HARRIS, SHRIVER
& JACOBSON LLP
One New York Plaza
New York, NY 10004
(212) 859-8000
michael.keats@friedfrank.com

LEGAL PRINTERS

LLC

! Washington, DC ! 202-747-2400 ! legalprinters.com

TABLE OF CONTENTS
Page
TABLE OF CONTENTS ............................................. i
TABLE OF AUTHORITIES ...................................... ii
STATEMENT OF INTEREST OF AMICI CURIAE....1
INTRODUCTION AND SUMMARY OF
ARGUMENT ...............................................................4
ARGUMENT ...............................................................8
I. Proper Price Impact Analysis Includes an
Assessment of the Nature of the Alleged
Misstatements .............................................................8
II. From an Economic Perspective, a Subsequent
Drop in Stock Price May Not Demonstrate Price
Impact of An Alleged Misrepresentation .................11
CONCLUSION ..........................................................15

i

TABLE OF AUTHORITIES
Cases

Page(s)

Ark. Teachers Ret. Sys. v. Goldman Sachs Grp., Inc.,
955 F.3d 254 (2d Cir. 2020) ......................... passim
Erica P. John Fund, Inc. v. Halliburton Co.,
563 U.S. 804 (2011) ................................................ 8
Halliburton Co. v. Erica P. John Fund, Inc.,
573 U.S. 258 (2014) ...................................... passim
Other Authorities
Zvi Bodie, et al., Investments (10th ed. 2014) .......... 11
John Y. Campbell, et al., The Econometrics of
Financial Markets (1997) .................................... 14
Eugene F. Fama, Efficient Capital Markets: A Review
of Theory and Empirical Work, 25 J. of Fin. 383
(1970). ................................................................... 11
Eugene F. Fama, et al., The Adjustment of Stock
Prices to New Information, 10 Int’l Econ. Rev.
(1969) .................................................................... 14
Jill E. Fisch, The Trouble with Basic: Price Distortion
After Halliburton, 90 Wash. U. L. Rev. 895
(2013). ................................................................... 10

ii

STATEMENT OF INTEREST
OF AMICI CURIAE 1
Amici curiae are individuals who teach,
research, and write about financial economics. The
amici have also served as testifying and consulting
experts in connection with economic issues, including
significant experience with securities class action
cases. Amici have an interest in ensuring that the
securities laws are interpreted to accurately reflect
current economic scholarship. Amici also have an
interest in ensuring that the economic principles used
in securities class actions are correctly identified and
applied by the federal judiciary to reflect the
economically appropriate approach for the protection
of public companies and their investors alike. Amici
are able to offer a unique perspective on the
evaluation of price impact from an economic
perspective that can aid the Court in resolving
important issues presented in this case. Accordingly,
amici have a substantial interest in the questions
presented here. Some of the amici previously sought
and were granted leave to file amicus briefs before the
United States Court of Appeals for the Second Circuit,
and some of the amici had previously submitted a
brief in support of Petitioners’ petition for a writ of
certiorari in this case. Although each individual
amicus may not endorse every statement made
Pursuant to Rule 37.6, amici affirm that no counsel for
any party authorized this brief in whole or in part, and that no
person other than amici and their counsel made a monetary
contribution to its preparation or submission. The parties have
entered blanket consents to the filing of amicus briefs, and copies
of their letters of consent are on file with the Clerk’s Office.
1

1

herein, this brief reflects the consensus of the amici
that rigorous economic analysis that considers the
nature of the challenged statements is required to
determine whether a set of challenged statements
caused price impact.
In alphabetical order, the amici are:2








Sanjai Bhagat is Provost Professor of
Finance at the Leeds School of Business at
the University of Colorado Boulder.
David J. Denis is the Roger S. Ahlbrandt,
Senior Chair in Finance and Professor of
Business Administration at the Joseph M.
Katz Graduate School of Business at the
University of Pittsburgh.
Ronald J. Gilson is the Marc and Eva Stern
Professor of Law and Business at Columbia
University, School of Law and the Charles
J. Meyers Professor of Law and Business,
Emeritus at Stanford Law School at
Stanford University.
Steven C. Mann is an Associate Professor of
Finance at the M.J. Neeley School of
Business at Texas Christian University.
John McConnell is the Burton D. Morgan
Distinguished Chair of Private Enterprise
(in Finance) at the Krannert Graduate
School of Management at Purdue
University.

Institutional affiliations are provided for identity
purposes only. This document does not purport to present the
institutional views of any of the named universities or entities.

2

2















Gordon Phillips is the Laurence F.
Whittemore
Professor
of
Business
Administration and Faculty Director of the
Center for Private Equity and Venture
Capital at the Tuck School of Business at
Dartmouth College.
William L. Silber is a Senior Advisor at
Cornerstone Research and the former
Marcus Nadler Professor of Finance and
Economics at the Stern School of Business
at New York University.
David C. Smith is the Virginia Bankers
Association Professor of Commerce at the
University of Virginia and Associate Dean
for Center Development & Research at the
McIntire School of Commerce at the
University of Virginia.
Chester S. Spatt is the Pamela R. and
Kenneth B. Dunn Professor of Finance at
the Tepper School of Business at Carnegie
Mellon University.
Russell Wermers is the Bank of America
Professor of Finance and Director, Center
for Financial Policy at the Robert H. Smith
School of Business at the University of
Maryland at College Park.
Mark Weinstein is the Emeritus Associate
Professor of Finance and Business
Economics at the Marshall Business School
at the University of Southern California.
Robert F. Whitelaw is the Vice Dean of the
Undergraduate College and the Edward C.
Johnson 3d Professor of Entrepreneurial
Finance at the Leonard N. Stern School of
Business at New York University.
3



Jaime F. Zender is Professor of Finance and
the Baughn Professor of Finance at the
Leeds School of Business at the University
of Colorado Boulder.
INTRODUCTION AND
SUMMARY OF ARGUMENT

The Second Circuit’s decision, which held that
a court could not examine the nature of the alleged
misstatements in examining price impact at the class
certification stage of a putative securities class action,
prevents meaningful economic analysis of price
impact at the class certification stage, contrary to
Supreme Court precedent holding that defendants
may defeat certification of a securities class action
“through direct as well as indirect…evidence” that the
alleged
misstatements
had
“price
impact.”
Halliburton Co. v. Erica P. John Fund, Inc., 573 U.S.
258, 283 (2014) (“Halliburton II”).
Here, the Second Circuit’s decision excluded a
critical component of evidence of price impact by
holding that it is unnecessary to “consider the nature
of the alleged misstatements in assessing whether
and ‘why the misrepresentations did not, in fact,
affect the market of [the] stock.’” Ark. Teacher Ret.
Sys. v. Goldman Sachs Grp., Inc., 955 F.3d 254, 279
(2d. Cir. 2020) (Sullivan, J., dissenting) (“ATRS II”)
(citation omitted). Contrary to the Second Circuit’s
exclusion of alleged misstatements as price impact
evidence, an analysis of the content of alleged
misstatements is a key part of an economic
assessment of price impact. Focusing only on stock
price reactions on the alleged corrective disclosure
dates, the approach adopted by the Second Circuit,
4

can lead to incorrect conclusions regarding price
impact and thus result in class certification being
granted in securities class actions in which the
alleged misstatements actually had no price impact.
Halliburton II, 573 U.S. at 281-82 (“Price impact
is...an essential precondition for any Rule 10b-5 class
action.”). Under the Second Circuit’s approach,
defendants will be precluded from presenting a
complete economic analysis of price impact allowed by
Halliburton II, which may result in courts relying
incorrectly on evidence of a price decline following
alleged corrective disclosures.
Focusing only on stock price movements on
alleged corrective disclosure dates and ignoring the
challenged statements themselves prevents a
complete economic analysis of price impact. Price
movement following an alleged corrective disclosure
does not by itself prove that prices were distorted as
a result of an alleged fraud. Ignoring the challenged
statements themselves when evaluating their price
impact at the class certification stage is at odds with
economic theory and not defensible from an economic
perspective. 3 The challenged statements themselves
are important evidence in assessing price impact.
Judge Sullivan was correct when he observed, “I don’t
see how a reviewing court can ignore the alleged
misrepresentations when assessing price impact.”
Price impact matters at class certification because the
“fundamental premise [is that] an investor presumptively relies
on a misrepresentation so long as it was reflected in the market
price at the time of his transaction… If it was not, then there is
no grounding for any contention that [the] investor[] indirectly
relied on th[at] misrepresentation[] through [his] reliance on the
integrity of the market price.” Halliburton II, 573 U.S. at 278
(internal quotations and citations omitted).

3

5

See ATRS II, 955 F.3d at 279 (Sullivan, J.,
dissenting).
Economic analysis, including an assessment of
the alleged misstatements themselves, is required to
determine whether those statements actually affected
a company’s stock price, i.e., whether they had price
impact. In this case, Judge Sullivan noted that the
approach adopted by the Second Circuit “strain[ed] to
avoid looking at the [challenged] statements
themselves,” but this type of information and analysis
is an important component of an economic analysis of
price impact. ATRS II, 955 F.3d at 279 (Sullivan, J.,
dissenting). In other words, the Second Circuit’s
approach ignores that the nature of the challenged
statements is a key factor in an economic analysis of
price impact.
From an economic perspective,
analyzing the nature of the challenged statements
and whether they potentially contain value relevant
information is necessary when determining whether
the statements actually affected the stock price,
which we understand to be the core inquiry in
assessing price impact. Hence, to assess price impact
as described in Halliburton II, one should consider the
nature of the challenged statements.
Using only evidence of price movement after an
alleged corrective disclosure to establish price impact
of the challenged statements is not defensible. In
particular, price impact cannot be assumed when a
company has merely expressed general business
principles, as most public companies do, especially if
those statements did not cause price changes when
they were made. When generalized statements about
business principles are made, they may not be
connected to any specific business activity and may
not be associated with an impact on expected future
6

cash flows or the risk-adjusted discount rate.4 If that
were the case, then those statements would have no
price impact, and so could not and would not impact
stock price.
Accordingly, in a situation in which a company
is alleged to have made only generalized statements
regarding business principles that were not met with
any stock price reaction when they were made, an
economist should test whether such statements had a
price impact. One cannot look only at the stock price
reactions on the alleged corrective disclosure dates as
the Second Circuit appears to have done, as such price
reactions can be a poor measure of the price impact of
an alleged misrepresentation. For example, the stock
price may have declined on these dates for many
reasons, such as the filing of a regulatory enforcement
action against a company or the release of negative
confounding information about the company.
Instead, rigorous economic analysis is required
to determine whether a stock price was affected by a
particular statement. The Second Circuit’s decision
is contrary to the idea “‘that an investor
presumptively relies on a misrepresentation so long
as [that misrepresentation] was reflected in the
market price at the time of his transaction.’”
Halliburton II, 573 U.S. at 278 (quoting Erica P. John
Fund, Inc. v. Halliburton Co., 563 U.S. 804, 813-14
(2011) (“Halliburton I”)). Testing the nature of the
challenged statements is often a key component of the
economic analysis in evaluating whether the alleged
representation “affected the market price in the first
A stock price reflects the present value of discounted
future cash flows. The discount rate is a risk adjusted rate that
reflects the firm’s systematic risk.

4

7

place,” as described in Halliburton II. See 573 U.S. at
278. The Second Circuit’s approach, which does not
permit analysis of the challenged statements, is a
departure from current economic theory, and the
economic theory underlying this Court’s prior decision
in Halliburton II.
ARGUMENT

I.

Proper Price Impact Analysis
Includes an Assessment of the
Nature of the Alleged Misstatements

An analysis of stock price changes is an
important component of an economic assessment of
price impact, but it is not by itself sufficient to reach
a conclusion about price impact. It is a basic tenet of
economic theory that not all types of publicly disclosed
statements affect stock prices. Assuming efficient
markets, stock prices reflect the present value of all
current information about all expected future cash
flows, discounted at a rate reflecting the firm’s
systematic risk.5
If new, publicly disclosed,
information changes investors’ assessment of a firm’s
expected cash flows or its systematic risk, then that
information will also affect the stock price. The
corollary to this is that some statements will not affect
the stock price because they do not affect either the
Finance literature distinguishes among several versions
of the efficient market hypothesis. In this brief, we refer to the
“semi-strong form” of efficiency, which implies that all public
information is reflected in a stock’s current market price and
that security prices adjust to new publicly available information
so that it is impossible to earn excess returns by trading on that
information.

5

8

firm’s current expected cash flows or perception of its
systematic risk.
To determine whether a statement had price
impact, examining the price reaction when the
statement was made is a necessary but not sufficient
part of the analysis. Similarly, price movement
following an alleged corrective disclosure is not
sufficient to prove that prices were distorted in the
first instance by allegedly fraudulent statements. As
an initial matter, price reaction when a challenged
statement was made and when an alleged corrective
disclosure occurred, typically take place months apart
in time and reflect temporally distinct market
reactions to potentially different information. See Jill
E. Fisch, The Trouble with Basic: Price Distortion
After Halliburton, 90 Wash. U. L. Rev. 895, 922
(2013). A price reaction to an alleged corrective
disclosure could provide circumstantial evidence of
price impact, but there may be no causal relationship
between the stock price distortion at the time of the
misstatement and the stock price decline at the time
of the alleged corrective disclosure.
Multiple factors may affect the price of a stock
on the day of an alleged corrective disclosure, such as
other corporate disclosures or other confounding
information released contemporaneously with the
alleged corrective disclosure. In addition, intervening
confounding market developments or uncertainty
about possible future developments may affect the
stock price movement following the alleged corrective
disclosure.
An economic analysis of price impact cannot
focus only on whether a company’s stock price
changes immediately following a given statement.
Looking only at the stock price changes following the
9

statement could lead to incorrect conclusions about
price impact. For example, one could falsely conclude
that a statement (irrelevant to value) had price
impact if the statement did not affect the price but
was released along with other, value-relevant,
confounding information that caused a price change.
Therefore, a determination of whether challenged
statements had price impact involves more than
examining stock price changes: an economist should
also examine the alleged misstatements themselves.
An economist analyzing price impact should
assess whether the alleged misstatements would be
expected to affect the company’s stock price. To do
that, an economist might consider whether the
alleged misstatements contain the type of information
that affects stock prices. In an efficient market, stock
prices are affected only by value-relevant
information.6
As noted above, value-relevant
information for a publicly traded company is any
information that would affect an investor’s
expectations about either the firm’s expected future
cash flows or its systematic risk.7
From an economic perspective, it cannot be
assumed without analysis that the statements at
issue convey information that investors would find
value-relevant. For example, we understand that the
alleged misstatements in this case are general
statements about Goldman Sachs’ business principles
and management of its conflicts of interests. General
statements of this type may not affect the present
Eugene F. Fama, Efficient Capital Markets: A Review of
Theory and Empirical Work, 25 J. of Fin. 383, 415-416 (1970).

6

See, e.g., Zvi Bodie, et al., Investments 350-354, 609-612
(10th ed. 2014).

7

10

value of a company’s cash flows and thus may not be
value-relevant. For example, Judge Sullivan pointed
out that issues relating to the alleged disclosures had
been previously disclosed on 36 prior occasions
without causing any movement in Goldman Sachs’
stock price. ATRS II, 955 F.3d at 277 (Sullivan, J.,
dissenting).
An economist should test whether the
challenged statements actually affected the stock
price in order to determine whether there was price
impact. Assuming that there is price impact without
engaging in the economic analysis to determine
whether the alleged misstatements “affected the
market price in the first place” is contrary to economic
theory and creates a substantial risk of a securities
class being certified where there was no price impact.
See Halliburton II, 573 U.S. at 278.

II.

From an Economic Perspective, a
Subsequent Drop in Stock Price May
Not Demonstrate Price Impact of an
Alleged Misrepresentation

In this case, the Second Circuit held that “if…a
disclosure caused a reduction in a defendant’s share
price, [one] can infer that the price was inflated by the
amount of the reduction.” ATRS II, 955 F.3d at 26566. However, price movement following an alleged
corrective disclosure can be a poor measure of the
price impact of an alleged misrepresentation,
particularly if the stock price did not change when the
misstatements were made.
From an economic
perspective one cannot simply conclude that the stock
price had been affected by challenged statements just
because a subsequent alleged corrective disclosure or
11

event is followed by a decline in stock price. Stock
prices may decline on a particular day for many
reasons, such as the filing of a regulatory enforcement
action against a company or the release of negative
confounding information about the company. Thus,
the stock price decline does not, in and of itself, imply
that prior statements affected the stock price,
especially if those challenged statements are
generalized statements about business principles.
Hence, for the Second Circuit’s approach to be correct,
several conditions must be met. In order to determine
whether those conditions are satisfied, an economist
should examine whether, when, and how information
contained in a challenged statement affected a
company’s stock price. Examining the nature of the
statements at issue plays a critical role in that
economic analysis.
First, there needs to be a direct connection
between the alleged corrective disclosures and the
alleged misrepresentation that allegedly affected the
stock price. From an economic perspective, an
economist should establish that the misstatements
have a direct connection with the alleged corrective
disclosures in order to use the price reaction following
the alleged corrective disclosures as evidence of the
alleged misstatements’ price impact.
Without
considering the challenged statements, it is
impossible to know whether the alleged corrective
disclosures in fact corrected these misstatements.
For example, an economist could examine the nature
of the challenged statements to determine whether
they contain information about the company’s present
and future financial condition such that they could be
expected to affect its stock price and whether the
12

alleged corrective disclosures are connected to this
information.
Second, the price decline in question must be
caused by the correction of the alleged misstatement
and separated from any declines attributable to other
confounding factors. Economists typically use an
“event study” to measure a company’s stock price
reaction to new information.8 An event study can be
used to remove the effects of market and industry
factors from stock price changes. However, an event
study does not automatically separate the price
effects of company-specific information related to any
alleged misstatements from stock price changes
caused by other company-specific information
disclosed at the same time that are unrelated to the
alleged misstatements, i.e., confounding information.
Furthermore, isolating the impact of confounding
information is particularly important in a litigation
setting that focuses on analysis of a single event at a
single firm, because confounding information cannot
be assumed to average out or be controlled for as in
traditional, multi-event academic studies.9 Thus, if
more than one piece of company-specific information
is disclosed on a particular day, an economist must
isolate the portion of the decline caused by the
correction of the alleged misstatements from the
portion caused by confounding events. In order to do
An event study uses a regression analysis to examine
whether a company’s stock price changed by more than would be
expected based on its relationship with market and industry
indices, and the movements of those indices.
9
See, e.g., John Y. Campbell, et al., The Econometrics of
Financial Markets (1997); Eugene F. Fama, et al., The
Adjustment of Stock Prices to New Information, 10(1) Int’l Econ.
Rev. 1-21.
8

13

that, an economist must examine the content of all the
information released on the alleged corrective
disclosure date(s) and decide what information, if any,
relates to the allegations and what information, if
any, is confounding. Then the economist must isolate
the price impact, if any, of the allegation-related
information.
Additionally, an economist could
examine whether similar alleged corrective
disclosures in the past resulted in a company’s stock
price movements.
The bottom line, therefore, is that to assess
whether the challenged statements at issue in a given
matter had a price impact, one should examine those
statements. Under the Second Circuit’s approach, a
securities defendant is prevented from presenting a
complete economic analysis of price impact, which
may result in the courts relying too heavily on price
declines following alleged corrective disclosures.
Failing to examine the alleged misstatements and
instead simply assuming price impact given a stock
price decline following an alleged corrective disclosure
precludes a full evaluation of whether “the alleged
misrepresentation did not actually effect the stock’s
price—that is, [whether] the misrepresentation had
no ‘price impact,’” as described in Halliburton II. See
Halliburton II, 573 U.S. at 263-64, 278-79. The
Second Circuit’s approach to the issue of price impact
prevents meaningful economic analysis of price
impact at the class certification stage, and should be
reversed.

14

CONCLUSION
For all the foregoing reasons, the judgment of
the Court of Appeals should be reversed, or, in the
alternative, vacated and remanded for further
proceedings.
Dated: February 1, 2021
Respectfully submitted,
Michael C. Keats
Counsel of Record
Justin J. Santolli
FRIED, FRANK, HARRIS, SHRIVER
& JACOBSON LLP
One New York Plaza
New York, New York 10004-1980
michael.keats@friedfrank.com
(212) 859-8000
Counsel for Amici Curiae

15

